<html>
<title> - 2011 SPRING STORMS: PICKING UP THE PIECES AND BUILDING BACK STRONGER</title>
<body><pre>[Senate Hearing 112-449]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-449

                   2011 SPRING STORMS: PICKING UP THE
                   PIECES AND BUILDING BACK STRONGER

=======================================================================

                                HEARING

                               before the

 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE

68-016 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee


 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              RAND PAUL, Kentucky
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  RON JOHNSON, Wisconsin
                Amanda Fox, Majority Professional Staff
                   Dan Lips, Minority Staff Director
                       Kelsey Stroud, Chief Clerk











                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1
    Senator Paul.................................................     2
Prepared statement:
    Senator Pryor................................................    33
    Senator Landrieu.............................................    35
    Senator Blunt................................................    37

                               WITNESSES

                         TUESDAY, JULY 19, 2011

Hon. Richard Serino, Deputy Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     4
Hon. Christopher Masingill, Federal Co-Chairman, Delta Regional 
  Authority......................................................     5
David Maxwell, Director, Arkansas Department of Emergency 
  Management.....................................................     8
Thomas M. ``Mike" Womack, Director, Mississippi Emergency 
  Management Agency..............................................     9
Brian `Rob'' O'Brian III, President, Joplin Area Chamber of 
  Commerce, Missouri.............................................    11

                     Alphabetical List of Witnesses

Masingill, Hon. Christopher:
    Testimony....................................................     5
    Prepared statement...........................................    48
Maxwell, David:
    Testimony....................................................     8
    Prepared statement...........................................    53
O'Brian, Brian III:
    Testimony....................................................    11
    Prepared statement...........................................    63
Serino, Hon. Richard:
    Testimony....................................................     4
    Prepared statement...........................................    39
Womack, Thomas M.:
    Testimony....................................................     9
    Prepared statement...........................................    58

                                APPENDIX

Questions and responses for the Record from:
    Mr. Serino...................................................    77
    Mr. Masingill................................................    85
    Mr. Maxwell..................................................    89
    Mr. Womack...................................................    93
Statement submitted by Build Strong Coalition....................    98

 
  2011 SPRING STORMS: PICKING UP THE PIECES AND BUILDING BACK STRONGER

                              ----------                              


                         TUESDAY, JULY 19, 2011

                                   U.S. Senate,    
             Ad Hoc Subcommittee on Disaster Recovery      
                         and Intergovernmental Affairs,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senators Pryor, McCaskill, and Paul.
    Also present: Senators Cochran, Blunt and Boozman.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I am going to call our Subcommittee to 
order. I want to thank my colleagues who are either here or who 
are on the way. We are just finishing the various caucus 
lunches, and it sounds like we have several people heading over 
here.
    What I would like to do is thank all of you for being here 
today. I know that this is a very busy time for everyone and I 
really appreciate you coming here and spending your day with 
us.
    We are here to assess the progress being made in recovering 
from this spring's devastating tornados, storms, and floods. We 
will also discuss how to pick up the pieces from these recent 
disasters and build back better.
    The panelists we have convened here today represent some of 
the States and communities that were the hardest hit by these 
events. I would like to start by thanking them for taking time 
to be here. You have had your hands full, and have had a lot of 
tough work back home to do. We appreciate your public service, 
your expertise, and all the things that you are doing for your 
home States and also for the Nation.
    Today's witnesses will provide us with a better 
understanding of the disasters' impact on communities and 
economies. We hope to get a better understanding of the 
collaboration and communication across all levels of government 
and the private sector, and get insights into how individuals 
and businesses are picking themselves back up and restoring 
their communities.
    This was an especially tough spring for my State of 
Arkansas, as it has been for many others, and the fight is not 
over yet. There are currently in our State two active disasters 
with 60 of the State's 75 counties eligible for Federal 
assistance. Beginning in April, historic flooding affected over 
1,000 homes and completely destroyed 130. Nineteen people were 
killed and many are still homeless.
    Before my constituents got the chance to assess the full 
scope of the damage, a series of devastating tornados tore 
through two Arkansas counties, killing eight people, damaging 
and destroying nearly 400 homes, and causing an estimated $4 
million in damages.
    Unfortunately, the situation I have described is not unique 
to Arkansas. The Federal Emergency Management Agency (FEMA) and 
the President have declared 53 major disasters this year, and 
each one represents the same emotionally devastating loss of 
life and property, expensive damages to small businesses and 
critical infrastructure and costly disruptions to an already 
fragile State and local economies.
    Recovering from a major disaster is expensive. In these 
challenging economic times, the impact of repetitive disasters 
threatens the fiscal health of State and local governments. We 
cannot rely on the Federal Government to fill the gaps left by 
insufficient State and Federal funds. We are all facing tight 
budgets and difficult spending decisions, and FEMA is not 
immune to this reality.
    In addition to a tighter budget for its day-to-day 
operations, the scope and frequency of major disasters has led 
to the projected $3 billion shortfall in FEMA's disaster relief 
fund. In light of these economic realities, we must ask 
ourselves how we can do more with less and how we can improve 
the efficiency of our response and recovery efforts in the wake 
of these disasters. Moreover, how can we build back smarter, 
stronger, more resistant and resilient to future storms, 
tornados, and flooding?
    We are all familiar with the facts about mitigation. For 
every one dollar invested in mitigation, four dollars is saved. 
Mitigation creates safer communities by reducing the loss of 
life and property, while also lessening the financial impact on 
Federal, State, and local governments. Effective mitigation 
projects such as tornado shelters and safe rooms can also 
improve evacuations when a community is struck by disaster.
    Again, I want to thank all of my colleagues for being here 
today and I would like to turn it over to Senator Paul for an 
opening statement.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you. Good afternoon. I would like to 
thank all of you for coming today and thank Chairman Pryor for 
having these hearings. I have great sympathy and condolences 
for those from Joplin for the horrible disaster there. Our 
State has also been hit by storms, not to such a great extent, 
but we have had storms recently and flooding in Kentucky and 
have had declaration of a disaster area.
    In today's hearings, I think it is important for us to 
learn a lesson from these recent storms. One of the lessons, I 
think, may be that we get involved in so many routine storms 
that maybe we do not have enough money when we have truly 
catastrophic storms. I think that may be one of the lessons of 
Hurricane Katrina.
    Like Senator Pryor, I think there have been increasing 
numbers of declarations of disaster, and it is kind of hard to 
be against declaring disaster, so we always declare disaster. 
And I think not every disaster is created equally.
    There are catastrophes like Hurricane Katrina or like what 
happened in Joplin, and then there are some other disasters 
that people need help with, but the question is, can the 
Federal Government keep doing it? Does the Federal Government 
have enough money to keep supplying endless amounts of money 
through FEMA?
    The President has requested large increases in the budget 
and the President has requested $46 trillion worth of spending 
over the next 10 years. Unfortunately, we do not have $46 
trillion. That will add $11 trillion to our debt. So we do have 
to make difficult choices, and even in things where people are 
in need, we have to decide, can we take care of every natural 
occurrence that goes on, or should we be reserving, the Federal 
Government's involvement for the catastrophic times when entire 
communities are wiped out and need help like Hurricane Katrina 
or in Joplin's case.
    But I welcome these hearings and I look forward to learning 
more from the panel.
    Senator Pryor. Thank you, Senator Paul. I was planning on 
going to the panelists and letting them give their opening 
statements. I would like each one of these witnesses to just 
take 5 minutes, or hopefully less, on your opening statement.
    Again, I want to thank all of you all for being here. I am 
going to do a very brief introduction. We have one panelist, 
Mr. O'Brian, who needs to catch a flight before the hearing 
ends, so we will try to direct our early questions to you, if 
that is possible.
    But what I would like to do is go ahead and introduce all 
five together, and then we will start with you, Mr. Serino. The 
Honorable Richard Serino is Deputy Administrator at FEMA. He 
will discuss FEMA's role in assisting State and local 
governments in their recovery efforts.
    Next is the Honorable Chris Masingill. He is the Federal 
Co-Chairman of the Delta Regional Authority (DRA), which 
operates in the area that we are going to talk about today. 
Next is David Maxwell. He is the Director of the Arkansas 
Department of Emergency Management (ADEM). You have been here 
many times before. We thank you again for being back.
    Next is Mike Womack. He is the Director of the Mississippi 
Emergency Management Agency (MSEMA). You have had your hands 
full so thank you for being here. Our fifth witness is Mr. Rob 
O'Brian. He is the President of the Joplin Area Chamber of 
Commerce (JACC). We certainly have been pulling for you and 
your community very strongly.
    We have a timing system. If you could keep an eye on that, 
and if you could keep your opening statements to 5 minutes 
each, that would be great. Mr. Serino.

  TESTIMONY OF HON. RICHARD SERINO,\1\ DEPUTY ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Serino. Thank you, Chairman Pryor, Senator Paul, 
distinguished Members of the Subcommittee. It is a pleasure to 
be here today representing FEMA, and also to discuss our 
response and our recovery efforts during the recent severe 
storms.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Serino appears in the appendix in 
page 39.
---------------------------------------------------------------------------
    As I have mentioned, I had the opportunity to be in many of 
these disaster areas shortly after they happened, sometimes 
within hours. In Georgia, when the tornados went through, the 
next day in Mississippi, spent some time with Mike looking at 
the areas, back in D.C., then in Alabama for awhile, both in 
rural as well as in Tuscaloosa, and then unfortunately, just a 
few weeks later, on the ground in Joplin within literally hours 
after the tornado went through Joplin. And most recently, about 
a couple of weeks ago, up in Minot, North Dakota with the 
floods that are happening there.
    Through that period of time, one of the things that I have 
been able to see is not only FEMA's response, but also really 
the whole community response that we have seen throughout the 
areas. The work that has been done by the people on the ground, 
both Dave and Mike and the people that they work for, as well 
as the Governors and the mayors and the first responders, the 
police officers, the firefighters, the emergency medical 
technicians (EMTs), have saved lives.
    And I think that is probably one of the most important 
things, is the work that they have done on the ground has saved 
lives. And some of the mitigation efforts, especially an 
example is in Minot, North Dakota, is the levees and the 
temporary levees and the flood fight that they put up with 
5,000 structures literally under water and 4,000 homes under 
water, no lives were lost. I think that is important to note, 
that the work that people did, in this example, no lives were 
lost through mitigation efforts.
    The whole community, as Administrator Fugate says time and 
time again, is not just the government, not just FEMA, not just 
the Federal Government, the State government, the local 
government, the tribes, but it is also bringing together the 
non-profit organizations. It is bringing together the faith-
based community. I will have some examples of that I will touch 
on a little bit later.
    Also, the great work that the private sector has done 
during some of these disasters that have struck. And probably 
the most important part of the team is the public and what they 
have been able to do. This is not something that FEMA is the 
lead on.
    Somebody asked me a question, I think in Joplin, How is 
FEMA going to be able to respond to all this? And if it was 
just FEMA, we would not be able to. It is really about bringing 
the whole team together, the folks that I mentioned. There are 
examples after examples.
    In Joplin, for example, looking at what the faith-based 
community was able to do, the Southern Baptists were cooking 
food to be distributed in a Red Cross shelter, delivered by Red 
Cross people in a Red Cross shelter, as well as Salvation Army 
shelters, to help thousands and thousands of people.
    Things that, as the government is working together as part 
of the team, is very important to bring together all members of 
that team. I look forward to answering any questions as we go 
forward, and in the interest of time, I will stop there.
    Senator Pryor. Thank you. I see that we have been joined by 
Senator Boozman. We would like to ask Senator Boozman to come 
and have a seat up here if you would like to. Thank you very 
much for joining us, Senator Boozman. Mr. Masingill.

    TESTIMONY OF HON. CHRISTOPHER MASINGILL,\1\ FEDERAL CO-
               CHAIRMAN, DELTA REGIONAL AUTHORITY

    Mr. Masingill. Thank you, Senator Pryor. Thank you, Members 
of the Subcommittee, my fellow panelists. Senator, again, thank 
you for the opportunity to be with you today and share a 
different perspective with my role as the Federal Co-Chair of 
the Delta Regional Authority, which comprises 8 States, 252 
counties and parishes, and approximately 10 million people in 
our region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Masingill appears in the appendix 
on page 48.
---------------------------------------------------------------------------
    During the month of April, the Mississippi River Basin 
received 600 percent of its annual rainfall in a 3-week period. 
This unprecedented amount of rain would lead to a flood of 
historic proportions along the Mississippi River and tested a 
levee system that protected millions of families in the Delta 
as never before.
    In late April and early May, the Governors of the States 
along the river declared states of emergency to prepare for the 
impending flood and Deltans began making preparations to 
protect their lives, homes, and properties as best they could.
    Over the next 2 weeks, the Mississippi River rose to levels 
unseen since the 1927 flood, and in many locations, surpassing 
those levels by several feet. The high water forced the Army 
Corps of Engineers to make the difficult decision to breach the 
New Madrid levee system at Birds Point, Missouri, and later 
opening the Morganza spillway in Louisiana.
    Throughout the ordeal, the Corps of Engineers and local 
level districts worked tirelessly to inspect, maintain, and 
repair any levee issues that arose. Throughout their diligence 
and hard work, the levee systems as designed and no failures of 
main line levies occurred. Unfortunately, the levies along many 
of the tributaries of the Mississippi did not fair as well.
    Due to the massive quantities of water flowing down the 
main river channel, as well as the significant rainfall across 
the region, many of the numerous rivers, lakes, and streams 
that feed into the main river channel were unable to drain and 
left their banks to overtop or break the levies that were 
designed to contain them.
    The backwater flooding that resulted was the cause of the 
majority of the flood damage to many of the DRA States. While a 
number of our member States were struck by devastating tornados 
for which the DRA offered its support and assistance, the 
majority of the damage in the DRA territory caused by these 
storms manifested itself in this flooding that I just 
mentioned. So my statements will primarily, Senator, focus on 
that event.
    Throughout the disaster, DRA attempted to maintain two-way 
communications with local, State, and Federal partners to the 
fullest extent possible. We saw great work from our Federal 
partners and local partners, and in the course of trying to 
maintain these communications, did develop and hear and collect 
some unique challenges and feedback that I would like to share.
    The significant loss in our agriculture production is a 
serious challenge facing our region. Agriculture is one of the 
leading industries in the Mississippi Delta and as a result of 
the flooding of a large percentage of that farmland, producers 
and others in an Agriculture-related industry are facing 
significant economic burdens.
    Additionally, the efficiency of the response, the public 
outreach and information sessions that were held across the 
region by FEMA and the Small Business Administration (SBA) were 
very well attended and received. There were numerous avenues 
used to access those who had been flooded to ensure that there 
was sign-up for appropriate programs and aware of the 
assistance for which they were qualified.
    FEMA and SBA representatives are still manning stations at 
home, improvement and hardware stores across the region 
assisting with disaster filing processes. The Corps of 
Engineers also received high praise from numerous entities 
across the region.
    However, overall local opinion seemed to feel that the 
Federal response was well-managed, but there are areas of 
concerns and a few things, complaints, that I would like to 
stress. One, the first touch on government contracting process. 
With so many displaced workers in the region, residents were 
displaced and displeased to see contracts being awarded by FEMA 
to companies located outside of the disaster-affected State.
    While it is understood that the urgency of the response 
necessitates FEMA having pre-negotiated contracts, we would 
like to see the recovery phase of long events allow for more 
local participation, particularly like through our local 
planning and development districts.
    Second, the DRA has heard suggestions that groups assisting 
with recovery might adopt additional processes and plans to set 
up response tents by need, not necessarily by agency. When 
families in Poplar Bluff or Sikeston or New Madrid had 
questions about housing, the answers were often sufficient, but 
somewhat incomplete, and that answer might be determined by 
which government agency, like the U.S. Department of 
Agriculture (USDA), RD, or Non-Governmental Organizations 
(NGO's) like the Red Cross, an applicant visited first.
    Comprehensive coordination between the government and 
relief organizations during a relatively quiet time might allow 
each of us to do a better job on this front. DRA would be 
willing to help with that.
    Third, States have noticed that the rapid pace with which 
individual assistance was granted was not matched by the equal, 
rapid public assistance response. We all recognize that while 
housing needs addressed throughout individual assistance are 
important, public assistance programs designed to help 
counties, States, and non-profits repair their public 
infrastructure are particularly important to the Mississippi 
Delta region.
    Finally, the DRA heard information concerning the 
mitigation activities undertaken by private residents and 
businesses. Under FEMA and SBA guidelines, residents and 
businesses that were flooded are eligible for assistance either 
through grant or loan mitigation funding to prevent damage from 
adverse weather events.
    States have noticed numerous citizens and businesses spent 
their own money to build levies around their property, new 
equipment and furniture, relocate livestock, et cetera. Despite 
the fact that these precautions prevented more claims for 
Federal disaster aid, these mitigation activities are not 
eligible for any type of Federal assistance in the form of a 
grant or a loan.
    Alternating this regulation could have the added benefit of 
saving the Federal Government money without burdening property 
owners with significant costs for protecting their property.
    A couple of quick recommendations. Communications between 
agencies, State government, and locals can always be improved 
upon during and after our after-action. Instituting a task 
force approach to communication between all involved parties 
allows everyone to be on the same page, have the same 
information, and a clear understanding of the mission at hand.
    One particular note. In dealing with long-term recovery, 
the DRA strongly emphasizes my Federal partners to look at the 
work with small businesses and the business and industries as a 
whole for whom a disaster could mean a loss of income, job 
reduction, elimination, and even foreclosure.
    Although the SBA did a great job publicizing its disaster 
loans to the public, we feel that a stronger emphasis on 
spreading that information on their Economic Injury Disaster 
Loans (EIDL) as a life support for many of our small 
businesses.
    At that same token, finally, in keeping with the small 
business theme, in disaster situation, it is important that we 
as government think about how best to coordinate responses and 
stronger ways for our businesses and industries to get them up 
and running again as quickly as possible.
    As a model, I would suggest us all to study the Louisiana 
Business Emergency Operations Center (LA BEOC), a joint 
partnership between the Louisiana Economic Development, the 
Governor's Office of Homeland Security and Emergency 
Preparedness, the National Institute Management System and 
Advanced Technology Institute, and the Stephenson Disaster 
Management Institute.
    This program works with businesses to improve their 
disaster preparedness, improve communication with business and 
industries before, during, and after disaster events; rapidly 
develops sound economic impact estimates--which is an issue 
that we are dealing with now in this disaster--to support 
decisions making a request for business assistance; help 
coordinate response effort; help coordinate post-disaster 
economic recovery.
    During this recent round of spring storms, the Mississippi 
Delta small business owners would certainly have, I think, 
benefited with a coordinated system of this nature to help them 
to get back to where they are.
    In conclusion, I applaud my Federal partners for the work 
and the local partners for the diligence in dealing with these 
storms, and we particularly stand ready to assist them in any 
way possible. Again, thank you, Senators and Chairman, for the 
opportunity.
    Senator Pryor. Thank you. Mr. Maxwell.

TESTIMONY OF DAVID MAXWELL,\1\ DIRECTOR, ARKANSAS DEPARTMENT OF 
                      EMERGENCY MANAGEMENT

    Mr. Maxwell. Thank you, Chairman Pryor, and distinguished 
Members of the Subcommittee for this opportunity to testify 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maxwell appears in the appendix 
on page 53.
---------------------------------------------------------------------------
    Arkansas has experienced numerous challenges over the past 
few years, including 11 Presidentially declared disasters since 
2008. We continue to share the vision of Governor Mike Beebe, 
which is to coordinate resources, expertise, and leadership for 
mitigation, preparedness, response, and recovery while 
protecting lives, environment, and property of the people of 
Arkansas.
    Last week I had the opportunity to sit down with several of 
my counterparts, with the Central U.S. Earthquake Consortium, 
and all of those States--Arkansas, Kentucky, Missouri, Indiana, 
Illinois, Tennessee, and Alabama--had all experienced disasters 
this spring. And we noticed a common thing that I thought was 
very important to bring out.
    Outside of commodities and a few other items, none of the 
States had requested resources from FEMA, and I think that is a 
big deal and I think we can attribute that to, one, the 
Emergency Management Performance Grant (EMPG) which has helped 
that preparedness efforts at local level so that it starts 
there at the local level and can continue to be there.
    We have several examples of the State--Homeland Security 
Grant Program, equipment purchases, that assisted both with 
search and rescue, certainly in Arkansas within Interoperable 
Communications, none of which would have been available to us 
without those grants.
    Continuing to utilize the Emergency Management Assistance 
Compact (EMAC), has assisted the States to bring in other 
States and local entities to assist with our equipment and 
other resources, rather than asking FEMA to provide those. So I 
think those are three very important programs that are out 
there.
    Of course, today we are trying to look at mitigation as 
much as possible. A few examples from Arkansas. Safe rooms. We 
found, in our tornados, that a number of citizens had safe 
rooms that we know save lives. Arkansas puts $1.25 million 
every year, State money, into offsetting the cost of safe 
rooms, $1,000, or half the cost of the safe room, whichever is 
least, and within 10 days after the start of the State fiscal 
year, we had already expended all of that money. So we know 
people are building safe rooms.
    The Vilonia School District was awarded a FEMA mitigation 
grant for a million dollars to build a safe room for their high 
school. Very important. And the other part is West Memphis, 
Arkansas, several years ago had bought out 18 repetitive loss 
structures. Those are structures that did not flood this year 
because they no longer exist. West Memphis is talking to us 
about continuing that program and buying out additional 
properties.
    While I have just another minute, I will say that from our 
standpoint, our relationships with FEMA and the other parts of 
the Federal family, the Corps, certainly was very seamless in 
these disasters. Region VI, FEMA Region VI, had a liaison in 
our Emergency Operations Center (EOC) from almost day one, and 
we had JFO up and running very quickly, and money out on the 
streets very quickly.
    In the last disaster, although it took quite awhile to get 
the declaration, we got it on a Friday evening and by Monday, 
we already had individual assistance money out on the street. 
So I think that is important to note.
    With that, Mr. Chairman, I will be happy to take any 
questions at the proper time.
    Senator Pryor. Thank you.

     TESTIMONY OF THOMAS M. ``MIKE'' WOMACK,\1\ DIRECTOR, 
            MISSISSIPPI EMERGENCY MANAGEMENT AGENCY

    Mr. Womack. Good afternoon, Chairman Pryor, and Senator 
Paul, and the distinguished Members of the Subcommittee. I have 
been a senior employee of the Mississippi Emergency Management 
Agency since 2002 and have observed the progression of my 
State's ability to respond to large-scale events, as well as 
the development of the Federal Government's response 
capability.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Womack appears in the appendix on 
page 58.
---------------------------------------------------------------------------
    As you are aware, the State of Mississippi was greatly 
impacted by tornados, severe storms, and flooding that occurred 
in April, and Mississippi River flooding that occurred in May. 
Mississippi received two Federal disaster declarations and an 
emergency declaration for those events. Nearly 11,500 
households requested assistance from FEMA. More than 2,750 
families received housing assistance grants, and more than 300 
homes were deemed destroyed by FEMA Individual Assistance 
Inspections.
    Individual Assistance grants for both disasters totaled 
more than $19 million. I will briefly summarize the response to 
these events, and primarily my focus will be on how Mississippi 
has and continues to reduce property damage and reduce the risk 
to the life of our citizens.
    First, I totally agree with Mr. Maxwell that the Homeland 
Security Grant Program and the Emergency Management Performance 
Grant Program over the past 10 years has made the Nation a much 
stronger and safer place. I echo exactly what he said. The 
response was handled by State and local, a lot of mutual aid on 
the State level, some on the intrastate level, but we have very 
capable first responders and they were trained and exercised 
and equipped, somewhat, by these Homeland Security and 
Emergency Management grant funds.
    As we get into a discussion about what the Nation can 
afford, I would simply say that in my opinion, the money we 
spent over the last 10 years has been effectively used, for the 
most part.
    The second thing I would like to focus on is the work of 
FEMA during the recent response. I thought it was exceptional. 
Due to the devastation in the State of Alabama and ongoing 
disasters in Tennessee, Georgia, North Carolina, FEMA Region X 
from the Pacific Northwest led the group and strong leadership 
was provided by Terry Charles, the Federal Coordinating Officer 
from Region IV, our region here in the Southeast.
    The coordination between key Federal agencies, FEMA, U.S. 
Army Corps of Engineers (USACE), National Weather Service 
(NWS), and the U.S. Geological Survey (USGS) was also 
outstanding.
    As far as the recovery is concerned, overall it was very 
good. I do feel there are some areas that need improvement. The 
Individual Assistance Preliminary Damage Assessment process was 
swift and efficient and showed great flexibility by the FEMA 
staff. The Home Inspection and Individual Assistance grant 
disbursement process for the vast majority of the disaster 
survivors was excellent as well.
    However, an area that can be improved is coordination 
between individual assistance, the Hazard Mitigation Grant 
Program (HMGP), and the National Flood Insurance Program's 
Substantial Estimation Program. I have addressed these concerns 
to senior FEMA leadership and they are very receptive to the 
concerns that I have, and that other States have, and I will 
followup with those with the leadership.
    In the last 10 years, Mississippi has received 21 Federal 
disaster declarations, including Hurricane Katrina. Thanks to 
the leadership of both Governor Barbour and great local elected 
officials, we have truly rebuilt devastated areas both better 
and safer. We in Mississippi have learned the importance of 
using Hazard Mitigation Grant Program funds to help prepare our 
residents for the potential impact that future storms and 
disasters may have on their lives.
    After Hurricane Katrina, Governor Barbour established the 
following priorities and funding levels for Hazard Mitigation 
projects resulting from that disaster. Funding levels 
fluctuated as jurisdictions established the critical needs and 
submitted applications based on those needs.
    Hazard mitigation planning, retrofit of critical 
facilities, acquisition of flood-damaged structures, upgrades 
of codes and standards, group and individual shelters to 
include safe rooms, generators for critical facilities, and 
then the coastal wind retrofit for residential structures.
    All of these programs have been tremendously effective in 
the State of Mississippi. We have examples of how the safe room 
program has actually saved lives, not just in this set of 
severe storms and tornados, but others. I have specific 
examples in my written testimony that speak to this success.
    While the use of HMGP funds were a major source of the 
State's mitigation efforts, allocation of other Federal grant 
funds tied to stronger standards as well has increased adoption 
of codes, have also made Mississippi safer and more resilient. 
Many jurisdictions have adopted international building code 
standards, some because it was tied to Federal funding, some 
because they knew it was the right thing to do.
    As I have previously stated, Mississippi has seen many 
disasters in the last decade, some catastrophic on the local 
level and one catastrophic to the State, region, and nation. We 
Mississippians are proud to say that we have used our resources 
and those provided to us by the Nation to rebuild by using 
proven mitigation and stringent code standard measures to build 
a much safer and more resilient State. Thank you.
    Senator Pryor. Thank you. Mr. O'Brian.

 TESTIMONY OF BRIAN ``ROB'' O'BRIAN III,\1\ PRESIDENT, JOPLIN 
               AREA CHAMBER OF COMMERCE, MISSOURI

    Mr. O'Brian. Thank you. Good afternoon, Chairman Pryor, 
Ranking Member Paul, and Members of the Subcommittee. Thank you 
for the opportunity to be with you this afternoon and to talk 
about the May 22 tornado, its impact, and our response, 
particularly regarding the business sector.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. O'Brian appears in the appendix 
on page 63.
---------------------------------------------------------------------------
    Regardless of the level of devastation that you may have 
seen on the news, the reality is, frankly, much worse. The 
tornado to date has claimed 159 lives. That makes it the worst 
tornado, in terms of fatalities, in more than six decades, and 
the eighth worse in United States history.
    The storm, which had winds close to 300 miles per hour in 
some locations, carved a path nearly 8 miles long and averaging 
three-quarters of a mile wide through Joplin and the adjoining 
village of Duquesne. More than 4,000 housing units were 
destroyed or damaged beyond repair; 9,000 people as a 
consequence are displaced for the long term.
    Also, hundreds of businesses were in its path. More than 
450 businesses in the direct path were destroyed or damaged 
beyond repair. That is approximately 20 percent of all 
businesses in our two communities.
    One of the largest employers, St. John's Medical Center, 
along with several big box retailers and hundreds of mom and 
pop operations were destroyed. Collectively, around 5,000 
people worked at those firms. While it is a blow to our 
residents, we also know it is important to make sure that our 
businesses are back in place and providing jobs as quickly as 
possible.
    As a bit of background, our Chamber of Commerce is the 
leading economic development entity for the Joplin region. As 
part of our development efforts, we also operate a Business 
Innovation Center in an adjoining building which became an 
important asset in our response.
    By the end of the day on Monday, following the tornado, we 
had arranged for additional volunteer staff to answer the 
hundreds of calls and walk-ins that we were getting. That 
allowed our employed staff to be in the devastated area 
checking on all businesses. Without landmarks or street signs, 
our team used GIS maps and often just memory to find business 
locations.
    Often, at those locations we found the owners or senior 
management in the debris. While there, we could help assess 
their situation, and as we learned more about these businesses, 
we continually updated information to hand back to them to make 
sure they were most current on the resources available to them.
    In addition to the team on the streets, we also had staff 
calling or texting business owners not found onsite. Of the 450 
firms, our staff had personally communicated with 420 of them 
by the end of the third week. By the end of week four, we had 
also talked with our other 800 Chamber members, a total of more 
than 1,2000 contacts in that first month.
    Also, on the Monday after the tornado, we were contacted by 
the SBA Business Recovery Team. We had already arranged for 
counselors from the Small Business and Technology Development 
Center (SBTDC) at Missouri Southern State University to be at 
our Innovation Center to assist businesses, and then we invited 
the SBA team to locate there as well.
    By Thursday, the Business Recovery Center was in full 
operation. We understand the SBA Business Recovery Team does 
not often co-locate with Chamber or with SBTDCs. However, this 
approach has worked very well for us and for our businesses, 
and we highly recommend that others implement this strategy.
    We were also contacted immediately by FEMA's Private Sector 
Support Group. We understand that this is a relatively new 
approach, since it does not have direct funding for businesses. 
FEMA, instead, has partnerships with regional and national 
firms that provide resources. Through one of those connections, 
we are receiving laptops for small businesses and for the 
school's technology program, which provides training for 
students and company employees.
    As their time permitted, members of both the SBA and the 
FEMA Private Sector Teams joined our staff members to go to 
devastated areas and meet with businesses onsite. They have 
also been present at a number of Chamber events to reach out to 
companies. Our ability to provide quality assistance to the 
business sector is greatly enhanced by having this 
collaboration.
    As of today, if more than 200 of the 450 businesses are 
back in operation, even it is a temporary location. Companies 
have gone to extraordinary lengths to retain their employees. 
We estimate nearly 3,500 of the 5,000 employees impacted are 
still on the payroll.
    Joplin will recover, stronger than ever. We appreciate your 
interest and look forward to your questions. Thank you.
    Senator Pryor. Thank you. And I want to thank all the 
panelists for being here and for sharing their great testimony. 
I am going to exercise the prerogative of the Chair here and 
change our order a little bit. I am going to defer my questions 
to the end. What I would like to do is to start with one round 
of 5 minutes each. I will turn to Senator Paul first, who is 
our Ranking Member, and then go in the order in which Senators 
arrived, which is Blunt, Cochran, Boozman, and McCaskill.
    Then, we will do a second round, if folks want to stick 
around. I want the panel to know that we have four Senators 
here today who are not actually Members of this Subcommittee, 
and three are not even members of the full Committee, but they 
wanted to come and hear your testimony and ask questions. So, 
Senator Paul, why don't you lead off?
    Senator Paul. Thank you. Mr. Serino, when you give out FEMA 
payments, do any payments go to people who have private 
insurance to cover their damage, or how does that work?
    Mr. Serino. For people--what we do is we actually look and 
see what the needs of the individual are, and depending on what 
they have, if they have private insurance, we do not cover for 
what is covered by private insurance. If there are some other 
needs that they may have, some short-term housing needs that 
are not covered by insurance, obviously we will take care of 
that. But if they have insurance, we do not cover that.
    Senator Paul. So if their building is covered, you would 
not cover to rebuild their building, basically?
    Mr. Serino. Correct.
    Senator Paul. And is there a mechanism for checking whether 
they get government assistance from another plan, like if you 
have flooding and you have agricultural assistance versus FEMA?
    Mr. Serino. Right. What we do is we actually aggregate the 
information that comes in through our National Processing 
Service Centers, when people go through that, and look and see 
what other things that they have. But on the flip side of that, 
also see what else they may qualify for if they do not have 
that, if they do not qualify for any FEMA grants, and to make 
sure they are not getting from somewhere else, double-dipping, 
if you will, but also to make sure that there are other things 
that may be available.
    Senator Paul. The GAO reported in 2006 that there was a 
billion dollars worth of improper payments. Has that been 
addressed? Who were those given to? I remember reading about 
prisoners in Baton Rouge getting paid for being displaced to 
prison. That was probably one of the most egregious ones I 
heard. But what where were most of these payments for and what 
has been done to make that better?
    Mr. Serino. Over the last 9 or 10 years, what we have done 
is put a lot of controls in place after the GAO report and 
actually determine our error rate. It was then 10 percent, but 
we have been able to do lower it. With a lot of the controls 
that we have put in place through our National Processing 
Service Centers and working with a number of folks within and 
outside of FEMA, we have actually gotten our error rate down to 
.3 percent.
    Senator Paul. Some people have reported that part of our 
problem is that we have a shortage of money, and we have a lot 
more FEMA disasters declared than before. I think under Reagan 
there were 28. Under the first Bush Administration, 44. It went 
up to about 130 under his second term, and now we are up to 
140. We are already at 137 this year and we have not hit 
hurricane season yet.
    I guess some of the concern is that we are declaring 
everything a disaster and that some of this should be maybe 
taken care of at the State level. We should not turn these 
events as catastrophic, but rather save our resources for 
things like Hurricanes Katrina and Rita and Joplin and 
Tuscaloosa. I mean, those were definitely disasters.
    But it is hard. It is hard to say no, and so I think 
everybody keeps saying yes. Is there any direction toward 
trying to control the numbers? Are we going to have 200 
disasters? I think the President's plan takes us from $11 
billion to $30 billion over the next 10 years. We just do not 
have the money to keep doubling and tripling programs. Is there 
any kind of plan in place to limit and direct our resources 
better?
    Mr. Serino. Currently, a number of things that we are doing 
are in place. First off, we have had some record-setting 
weather in this calendar year. For example, tornados have 
reached their highest number and the Mississippi and Missouri 
River are at record high flood stages. So, we are seeing a 
higher number of disasters because of the shifts in weather 
patterns; and also seeing what we have been able to--what we 
have seen for disasters over the past--within certainly the 
past year.
    We have been very busy, but at the same time, we have also 
been going back and looking at some of our previous disasters 
and seeing how we can reallocate money and de-obligate 
ourselves from financing previous disasters. If we are able to 
free up some dollars we will be able to meet and take care of 
some of the issues now with current disasters.
    As we continue to move forward, we certainly do look at 
disasters. We actually follow what our regulations state and 
what the law states, and in the Stafford what we can and when 
we cannot declare certain disasters.
    Senator Paul. And I have one final quick question. In 
Kentucky, the complaint I have heard is that it seems that the 
money has been dispensed. To my understanding, it gets 
dispensed and goes to the States, then the States dispense it 
again or make further decisions. Some seem to think that the 
money is locked up in our State capital somehow. I do not know.
    Do you keep tabs on the money once it gets to the States, 
or are you then pretty much done with the process?
    Mr. Serino. Usually when it goes to the States, the State 
is the responsible party, but we also work with the States and 
we work with the locals as well to try and ensure that the 
money goes through to continue on to where it is distributed.
    Senator Paul. Thank you.
    Senator Pryor. Thank you. Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman. Thanks for holding 
this hearing. Senator McCaskill and I are both here. We have 
probably had as many disasters in Missouri this year as in any 
year that anybody recalls. We had the spring flood of the 
Mississippi that Mr. Masingill mentioned and still there are 
challenges because of that. The Black River at Poplar Bluff 
flooded.
    The Missouri River looks like it will be in flood stage 
through the entire State, from the Iowa border to St. Louis for 
all of August. And then a number of tornados, including one 
that hit the St. Louis Airport and the area around that, and 
the tornado that Mr. O'Brian described so well. So, we have had 
lots of FEMA experience.
    And flooding in Branson, the Taneycomo with the lake there, 
created lots of problems. I think that we have tried to deal 
with those in the best way I could, but, Rob, I know you have 
to leave. Mr. O'Brian, you have to leave at 3:30 or so. I am 
going--4pm, good. We have a time for second round of questions 
then, and I am glad to have that.
    Just to start with Mr. O'Brian, you have been in the middle 
of this every day now since late May. Do you have any 
recommendations that FEMA and the private sector could do 
individually or collectively, how could they improve what we do 
to respond to these disasters?
    Mr. O'Brian. Well, we have dealt most specifically with the 
private sector side of FEMA, as mentioned, working on business 
recovery, and FEMA does not have dollars for businesses, but 
they do have resources. What I would say, Senator, is while 
they have been great partners in this, there is perhaps an 
issue of speed in response. I noted one which I think is a very 
good example of them working with a national partner.
    As we sat down and talked, we talked about laptops for 
small businesses. They brought that national partner in early 
in the second week and then said, We can expand this to the 
schools as well, which is terrific. The issue in that is 
probably in those first 2 weeks is when we had a number of 
businesses who really needed laptops because their computer 
systems were in the wreckage at some point in time.
    So here we are coming up on the 2-month mark and these 
laptops are just beginning to arrive. So I think some of that 
could be addressed, and I know every disaster is different, 
every situation is different, but I think on the private sector 
side of FEMA, if they could work with those national and 
regional partners and define, up front, what the resources are, 
or at least basic resources are, and make those available in a 
much more rapid fashion, it would benefit the business sector 
tremendously.
    Senator Blunt. Of the businesses you talked about that are 
damaged or out of business that are trying to recover, is there 
any private sector--I am not sure what the response is to like 
the florist shop that almost exclusively dealt with the 
hospital that is now essentially not there. Is there a 
disruption of business? Is there really any way that a business 
can plan for this kind of thing? Have you got some stories of 
businesses that have faced challenges that are different than 
you would expect?
    Mr. O'Brian. Well, I think there would be certainly all 
kinds of stories out there, Senator, in terms of how businesses 
have responded. I think a key, just in general that we have 
found, many businesses were not adequately prepared for was the 
loss of information. We are so computer driven in this age that 
unless the records are adequately backed up, preferably 
offsite, we had businesses that lost their records.
    Then in looking to the SBA for a loan, they had to retrieve 
some of those records, and then they found out that their 
accountant was done, and oftentimes it was difficult to 
retrieve those records. Now, we did have good support from the 
Small Business and Technology Development Center counselors and 
from the Secretary of State's Office, and others, to help 
retrieve those records, but that was probably one of the 
unifying things with many of the businesses.
    Senator Blunt. And just as an aside to that point, the 
hospital, the 2,500-employee hospital that really is, I think, 
going to have to be totally rebuilt and maybe we will even 
choose to relocate somewhere else in the community, they had 
just backed up all of their health records at the end of the 
preceding month. So they were 22 days away from having 
completed the project so that everybody who had health records 
at that hospital still has them, but they were that close to 
not having them.
    And it is an interesting point, that people lose records, 
their accountants lost the records as well. As a matter of 
fact, maybe even if you have not lost your business, your 
accountant may have lost. So backing up and access. Thank you, 
Chairman.
    Senator Pryor. Thank you, Senator Blunt. Senator Cochran, 
we are thrilled to have you here today. Thank you for being 
with us.
    Senator Cochran. Mr. Chairman, thank you very much for 
inviting us to join you and participate in this hearing. 
Appreciate the opportunity of working with you in the Senate. I 
look forward to joining forces with you in trying to help make 
sure we do everything we can here from the Federal level to 
help restore these communities that have been so heavily 
damaged, and to continue plans for protecting this region that 
is so important, economically in terms of people who reside in 
the region, from disasters such as we have seen recently.
    It is good to see Mike Womack again. Of course, every time 
I look up, I know we have had an accident or something bad has 
happened. He is there. I do not know what we would do without 
him. Hailey Roberts relies on him very closely and calls on him 
very regularly for his leadership and management skills. I am 
glad you are here to provide some insight.
    This recent flooding was something that confirmed the fact 
that the Mississippi River is huge and we have invested a lot 
of money in protecting the adjoining landowners and people who 
live in the region from flooding of the Mississippi River. And 
I do not want this to sound like a joke, but it looks like we 
may have overdone it in that all the water now in this recent 
flood basically stayed in the Mississippi River.
    The damages that were caused were backwater flooding, small 
streams, tributaries that lead into the Mississippi River, but 
the prevention of main stem flooding kept the water within its 
banks of this historic, huge, terrible flood.
    Do you have any comments to make about that, and whether or 
not we ought to go back to the drawing board and see what else 
we need to do now?
    Mr. Womack. Senator, I do not think the system is broken, 
but it certainly needs a few modifications. There are flood 
control structures on the Yazoo Basin, but they do not protect 
all of the basin. There are no pumps that pump the water out 
that collects behind those flood control structures.
    And it is not just Mississippi that has this problem. Other 
States have it as well. Dave Maxwell and I were talking about 
that much of their flooding was where the Mississippi backed up 
other rivers. So I think we do need to continue to look at what 
we could do to further protect those smaller streams such as 
the Yazoo River and the tributaries, because you are right. A 
lot of the flooding did not occur on the mainline Mississippi, 
but on these smaller rivers that do have some limited flood 
control structures, but not enough to fully protect the 
citizens.
    Senator Cochran. Thank you, Mr. Chairman, for having the 
hearing and inviting us to participate.
    Senator Pryor. Thank you for your questions and thank you 
for being here. Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman. I thank you all 
for being here. As Senator Blunt said, we have had a rough year 
in Missouri. I know he and I share the opinion we are both 
blessed to be from a State we love, but man oh man, has it been 
a rough year.
    I am interested to find out from you, Mr. O'Brian, whether 
you think that what FEMA provided in terms of really hooking 
you up, since there are no direct dollars through FEMA for 
businesses, but hooking you up with other resources that FEMA 
was aware of. Did it feel more like a scavenger hunt, or was 
there a menu of available resources that you could draw upon 
immediately in the days after the disaster?
    Mr. O'Brian. Senator, thank you, and that, as a follow-on 
to my response to Senator Blunt, we believe that there are a 
number of resources out there in the FEMA private sector side. 
Part of the problem for business and for us as advocates for 
business is that we really do not know what those are.
    I think the best example of that is, when you think about 
our community, when you think about the residents of the 
community and the businesses and business owners in the 
community, there is a period of time in there when everyone is 
essentially in shock.
    Senator McCaskill. Right.
    Mr. O'Brian. Everyone is working very hard to recover, but 
it is so overwhelming and there is so much information overload 
that goes on, that when we go to a business--we found very 
early on. When we would go to a business and say, What do you 
need, they would just----
    Senator McCaskill. Shrug.
    Mr. O'Brian. Yes, shrug. They did not know. They did not 
know exactly what they needed, or they would say, I do not need 
anything, go help someone else, which is very typical in our 
community.
    Senator McCaskill. Right.
    Mr. O'Brian. But once you could put something forward and 
say, Well, here are some examples of resources we have 
available, then that started the thought process for them. And 
even if they did not need those resources, at least they were 
able to tell us more definitively what it was that they felt 
they needed at that point in time.
    I think this is some of the issues, again, we have with the 
private sector support with FEMA, is that we know that they 
have wonderful resources there, and their team keeps asking us, 
What do you need, and we are in much the same position. We are 
not sure what our businesses need.
    Senator McCaskill. So you are saying, What have you got?
    Mr. O'Brian. So we say, What do you--yes, what have you 
got, what do you have? Let us see a list. Even again if it is 
very basic, and I think one of the things that they have tried 
to do is be in a position to be creative, again, because every 
disaster is different.
    Senator McCaskill. Right.
    Mr. O'Brian. And be able to bring some different resources 
to the table. But I think there is also commonalities, and even 
a basic shopping list, if you will, of resources, even if they 
do not necessarily, for confidentiality sake, at the first pass 
want to divulge who their regional and national partners are, 
if they can say, We can get you laptops, we can get you a 
structural engineer to come look at your building, we can get 
you--and just have a list of examples, that begins a process 
then, I think, for us and our businesses to respond.
    Senator McCaskill. It is one of those which comes first, 
the chicken or the egg, because I am sure from FEMA's 
perspective, if you go out and you put on a list, We have free 
laptops, a lot of people are going to ask for laptops that may 
not need laptops. On the other hand, they want to make sure and 
get laptops to businesses that do actually need them.
    So I think that there is probably--but I think you are 
right, that there is a way that maybe we could work on a list 
like, Do you need business equipment, do you need engineering 
consulting, do you need somebody--legal help, whatever.
    Because I know one of the problems we had is a great 
problem to have, but candidly, when I was down there right 
afterwards and then when I was down there the next time, there 
were so many people wanting to help that, I was offered like 14 
bottles of water within 5 minutes of when I arrived in Joplin 
because people were just stopping on the streets and wanting to 
do something.
    And I think a lot of the money and resources that flow in--
and that is one of the questions I have for you. I know that 
you have started the Business Recovery Fund and the Joplin 
Tomorrow Fund, and we just got a grant that Senator Blunt and I 
were able to announce, from Commerce that is going to help fund 
a regional and local coordinator for the business recovery 
effort.
    But I am a little worried about all the money flowing in to 
help and is it getting to the right place and is it accessible 
by the business community, or are there charities that have 
popped up saying, We are taking assistance for Joplin that 
maybe is not getting to Joplin? Do you see a problem there that 
we need to be aware of that we could help with?
    Mr. O'Brian. Well, first, thank you both, Senators, for 
your support on those grants. We appreciate that. Senator, I 
would say that whether it is Joplin or Cape Girardeau or 
Smithville, Mississippi, or any place, there is always concern 
about the response, especially with dollars, and are the 
dollars going to the right place.
    And we know there are some very strong national 
organizations that provide immediate response such as Red Cross 
that can be very beneficial. What we did in our community, and 
actually it was a group that was working with the schools on a 
Web site to encourage connection between the faith-based 
community, social services, and the business community to 
support the schools, was reroute that Web site with dialogue, 
and really it was a dialogue amongst these entities, said, For 
the long term, there are about six funds that we can all get 
behind.
    And as people would call, we really tried to direct them to 
those six funds. It is on a Web site called rebuildjoplin.org, 
along with a whole list of what people need and what people 
have to give as a way of coordinating that effort.
    But I think it is, to your question, very important, 
probably early in the process, to make sure that communities 
think about the long term and think about the entities that 
they have or that they may need to create, such as these 
foundations, in order to bring dollars in and essentially have 
them in the bank for the future, because people talk about 
returning to the status quo. SBA, FEMA, insurance, my bank will 
get me to the status quo. The reality is, there is no longer a 
status quo.
    Senator McCaskill. Right. Well, I think it is terrific. I 
am very proud of the Joplin community because of the way you 
did this, and as always, the best solutions are solutions that 
are done on a coordinated basis at the local level, rather than 
from Washington. Certainly I do not think anybody in Joplin 
would argue that FEMA was very, very important to the Joplin 
community, and the Federal agencies and the State agencies that 
came in to help.
    But for the long haul, I am glad the solutions are being 
crafted at the local level, and thank you for being here. 
Hopefully I will have time for some other questions. I would 
love to get into Birds Point.
    Senator Pryor. Thank you. Let me go ahead and ask just one 
question this round and then I will start the second round. 
Before I do, I want to say that one of the things that made me 
proud of my State was seeing lots of folks from the corridor of 
Fort Smith, Fayetteville, Springdale, Rogers, Bentonville, 
Bella Vista, and other parts of the that whole corridor that 
went right up Joplin to try to help.
    They were probably the folks handing you water because they 
just wanted to do something to help a neighbor in need. 
Sometimes it was organized by churches, sometimes it was just 
spontaneous, just folks going on their own, but they went up 
there to help and reciprocate because you have helped us many 
times when we have had our troubles. I know that Mr. Maxwell 
and Mr. Masingill can testify to that.
    Mr. Serino, let me ask you a question, if I can take a 
little bit broader view here. I hear stories and read articles 
in the paper that the Disaster Relief Fund may be running out 
of money. I am curious to know if this is true, what you 
anticipate for the rest of this fiscal year, and what we are 
going to do in the event that it does run out of money.
    Mr. Serino. Sure. Currently, the Disaster Relief Fund 
(DRF), we have $1.24 billion in the DRF currently, and we have 
been able to actually keep that somewhat stabilized over the 
last few weeks, few months actually, through, as I was talking 
a little bit earlier, how we are able to go back and look at 
de-obligating a number of previous disasters. By doing that, we 
have been able to keep it somewhat level.
    It is going down a little bit, obviously, with the 
disasters that we have been talking about across the country. 
Right now we are on pace. We look to when we may or may not get 
below a billion dollars, I would say, where we are projecting 
is sometime between now and possibly sometime early August, is 
where we are going.
    Senator Pryor. And so what do you do come early August? 
What arrangements do you have to make? Do you have to come back 
to the Congress?
    Mr. Serino. If necessary, we could, but right now we look 
at what we do. We had something in the past called immediate 
needs funding, which we did last year, that I am sure both Dave 
and Mike are familiar with.
    If necessary, we could do that, and that leaves the money 
in place for life-safety, life-saving issues, that if something 
were to happen, we will have the money to do that, and we will 
put actually on hold funding some of the other long-term 
projects that may be in place, construction of some public 
buildings longer-term, some roads that are longer-term down the 
line.
    We may actually put a hold on that until a new budget comes 
through. So that is sort of--we have done that in the past. We 
had to do that last year. If necessary, we may go to that again 
this year.
    Senator Pryor. We had a situation recently in Arkansas 
where we had two counties that we thought should easily have 
qualified for disaster assistance, but they were rejected and 
we had to go through an appeal process. That appeal process 
took a couple of weeks, and I got asked a few times about 
whether FEMA's decision making process was impacted by the fear 
that they might run out of money with all of these other 
disasters. Is that a factor in your consideration?
    Mr. Serino. Not at all. That does not enter into it at all 
as to how much money is currently in the DRF fund, as to 
whether a State or a county gets qualified. That does not enter 
into the equation for us at all.
    Senator Pryor. OK, great. Now, we will go to our second 
round. Senator Blunt.
    Senator Blunt. Thanks, Senator. It happens that both Joplin 
and St. Louis are both served by for-profit utility companies. 
Mr. Womack, I do not know if you were in this position during 
Hurricane Katrina or not, but we waived a provision for 
Mississippi, at least, in Hurricane Katrina so that any utility 
company that had replacement costs because of the disaster 
qualified for the same level of FEMA assistance.
    And my point on this always is, which as Governor Barbour 
well-explained it at the time, everybody who is served by this 
particular company pays taxes just like the person pays Federal 
taxes that has a municipal utility or an associated electric 
co-opportunity utility who automatically qualified for 
reimbursement.
    But like the city of Joplin, Mr. O'Brian, is all served by 
Empire Electric. I do not know if you have had discussions 
about this or not. I suspect you have. What do you see as the 
long-term impact on utilities in a community that their utility 
provider does not automatically--is not allowed, frankly--we 
would have to change the law to allow it--is not allowed to 
participate in the cost-share for disaster recovery?
    Mr. O'Brian. Well, Senator, I think you raise a good point 
with that in the Mississippi experience. Our electric utility 
is Empire District Electric. It is locally headquartered. It 
serves approximately 10,000 square miles in four States, most 
of that in southwest Missouri. And certainly, year in and year 
out they do anticipate that there will be some level of 
damaging storms.
    What they do not necessarily anticipate is an Efficient-5 
tornado that cuts through 14 miles of their service area, 
including some of the most densely populated part of that. And 
their estimate in terms of the damage done is, today, somewhere 
around $25 million. It could go higher as they continue on 
that.
    What that means for our community and, frankly, for our 
surrounding neighbors who are served by Empire is since they do 
not fit into the qualification, Stafford Act, is that 
eventually there will have to be a rate increase on that. And 
that is the only means that they have to recover those dollars.
    And I think the element of that, when we think about the 
long term, is that when you have a community like Joplin, or 
any other community that is served by investor-owned utilities 
that have had catastrophic disasters, you want them to recover. 
You want them to recover as quickly as they can.
    And if you placed utilities in a position, just because 
they are investor-owned utilities, where they eventually have 
to raise their rates to recoup that, essentially what you are 
doing is making it harder for the residents, and you are making 
it harder for the businesses that are still in operation, and 
you make it more difficult to attract new business investment 
in the community.
    And so, instead of incenting recovery, you have disincented 
recovery by now allowing them to take part in that funding.
    Senator Blunt. Mr. Womack, do you remember this situation 
when it came up in Mississippi?
    Mr. Womack. I do, but it was not managed through my agency. 
It was not Stafford Act funding.
    Senator Blunt. Right.
    Mr. Womack. As you said, it required a special act to allow 
the tax dollars to be able to help the for-profit utilities. So 
I do not have the details on it, but I do know that it was in 
an effort to try to make sure that the rates for the two big 
providers in Mississippi, Entergy and Mississippi Power, and of 
course, Entergy was heavily invested in Louisiana as well.
    But I do not know the details on it, but I do know that it 
hurt.
    Senator Blunt. Mr. Maxwell, have you had any experience 
with this kind of thing?
    Mr. Maxwell. We have not.
    Senator Blunt. All right. Mr. Serino, I would just say, I 
am going to continue to work on this. And, Chairman, I would 
love to talk to you about it. Senator McCaskill and I have been 
talking about it. If this community would have happened to have 
had a municipal provider, let us say they would pay 10 percent 
under the Stafford Act, they would be passing along $2.5 
million to the ratepayers instead of $25 million.
    Or if they have a 75-25 share, they would be passing along 
$6 million to the ratepayers instead of $25 million. Those 
ratepayers pay Federal taxes in exactly the same way that the 
neighboring community of Carthage, that has a municipal 
utility, pays Federal taxes. We have had, frankly, a little 
more experience with this, with devastating ice storms.
    We would have miles and miles of poles broken off, and the 
mileage that is in the electric co-opportunity, Federal 
taxpayers come in and say, We are going to help you keep your 
future rates low, or if it is a municipal utility, they say, We 
are going to help you keep your future rates low.
    But if it happens to be in a for-profit we say, You are 
going to go to the PSC, or whatever you call the commission in 
any State, and you are going to ask them and they are going to 
tell you, Yes, we may not give you exactly the timeframe, but I 
think inevitably, they let you pass this cost along to the 
taxpayer, the ratepayer, who just happens to be served by a 
different kind of utility.
    I think it is one of the great inequities in the way we 
look at this particular problem, and I just hope you will think 
about it with me, too. I know it is not something you can do 
right now, but I do think it is an area in the Stafford Act 
where we really could bring greater equity to people, 
neighbors, who suffer the same kind of calamity.
    One of them, at the end of the day, winds up, when their 
business--maybe in their business or their home--with a much 
higher utility rate than the other one did just because of who 
provides their utility to them.
    It is not that the for-profit absorbs that loss. The for-
profit goes to the public service entity, whatever it is, and 
they inevitably say, Sure, you can pass those costs along to, 
as Mr. O'Brian pointed out, all of your--everybody who happens 
to be served by your utility. In this case Joplin is a big part 
of what that utility does as a provider.
    Senator Pryor. Thank you. Senator Cochran, before you begin 
with questions, I want to thank you and Senator Landrieu for 
signing onto my FEMA Recoupment Bill. Thank you and it is your 
turn if you would like to ask.
    Senator Cochran. I have no other questions, Mr. Chairman. 
Thank you very much.
    Senator Pryor. Thank you. Senator McCaskill.
    Senator McCaskill. Thank you, and I want to second Senator 
Blunt's conversation about the utilities. What is particularly 
worrisome to me, and I know it is to you, Mr. O'Brian, is that 
if Empire goes to the PSC and the PSC says, Yes, you can pass 
those along to your ratepayers, what does that do for your 
business recovery?
    If somebody is making up their mind whether they want to 
come to Joplin or stay in Joplin and looking at a huge 
investment, if they know at the end of that investment, to 
rebuild in Joplin or to come to Joplin, I do not think a lot of 
people realize that Joplin is a Mecca for that entire region, 
even though the population of Joplin, people who lay their head 
down at night, may be around 50,000 people.
    There are over 200,000 people that travel to Joplin for 
school and for work and for shopping. And what would that do to 
that Mecca status if your utility rates were two or three times 
higher than surrounding communities, which you could envision 
happening with this. So we will continue to work on this and 
hopefully make some progress on it.
    I want to ask about housing. I know that we have 1,500 
people that are still on the list for housing in Joplin, and I 
know that you all have done so much in Missouri after the 
disasters. Can you update the Subcommittee on the efforts for 
the 1,500 that are still on the waiting list for housing, and 
what are the hang-ups? Two months is a long time and what do we 
need to do to make sure we clear that waiting list?
    Mr. Serino. One of the things that we are doing is we are 
working as a State-led housing task force, because one thing we 
do not want to do is come in and, say, FEMA to tell Joplin, 
This is the housing needs that you need. We are working with 
the community and with the State to see what their needs are 
and then what we can provide.
    We do not want to come in and say, You need X, Y, and Z. We 
want to make sure that we are meeting their needs. And one of 
the first things we do is look for rental assistance, look for 
renters, what is available for people to rent throughout the 
area.
    Unfortunately, as you just said, Joplin is sort of the hub 
and there is not a lot of rental assistance or even homes to 
buy in the area, even prior to this happening. So I think that 
is one of the challenges, and then on top of that, just seeing 
what is available throughout the area.
    One of the things that we looked at was the expedited 
debris removal that we have been doing, and I think that has 
helped us. Actually one of the first things we do, aside from 
rental housing for the short-term, is also look at trying to 
put people on their own property, where they are at, and 
looking to do that. Getting the expedited debris removal has 
actually helped us to look at that.
    Also, working with the leaders in Joplin and in the State 
is also looking to see what else they need in the area. We have 
had our Federal coordinating officer down in Joplin working 
with them to determine what is the best way and working with 
the people to look at some of the best options that kind of 
suit them, and we have been working through a lot of those now.
    Senator McCaskill. Well, what is the prospect for the 1,500 
people? I know the rumor was that the Chairman had a lot of 
trailers in Arkansas, and Joplin is not that far away.
    Mr. Serino. I will get the exact numbers of the housing 
units that we actually have in Joplin now. In Mississippi, 
there is already--there is 117 temporary housing units there 
now. Looking to actually bring some more to the area as 
necessary, but we are bringing them in at the request of the 
State and the request of the cities.
    Senator McCaskill. So should I talk to the State about 
this?
    Mr. Serino. We have been working together. It is the task 
force that has been working together to get through these 
solutions that we want to get together. We do not want to come 
in and say, We are going to bring in 1,500 trailers when that 
is not what they want.
    Senator McCaskill. OK. I just want to make sure that we 
take care of the 1,500.
    Mr. Serino. Right. And we have been working on that.
    Mr. Maxwell. Senator, I might add, we have plenty of rental 
property down in Benton County.
    Senator McCaskill. Now, be careful. We do not want to turn 
any of these people into Sooie Pig fans. We want them to stay 
up on our side of the line, so we have to be a little careful 
about having them come down to Arkansas.
    Let me ask you, Mr. Masingill, about the Delta Regional 
Authority and Birds Point. We are working hard. The entire 
delegation has been really united on all of these issues, and 
we are particularly united about getting Birds Point rebuilt.
    What are you hearing from where you sit about the 
rebuilding of the Birds Point levee, is there anything that you 
want to share with the Subcommittee about that situation, what 
the Corps is telling you, and how quickly can those farmers 
expect to be able to get back in production with the levee that 
is replaced?
    Mr. Masingill. Senator, thank you for that question. The 
estimates continue to change. In fact, I would be leery to tell 
you, but I have heard estimates as big as $10 billion for a 
total impact as it relates to our flooding, Senator Cochran, 
along the Mississippi, to anywhere to the $2.2 billion in your 
neck of the woods as it related to the New Madrid.
    One thing to keep in perspective is that 44 percent of all 
the American water that flows, flows through the Mississippi, 
and 31 States are touched by the Mighty Mississippi in the 
course of this. And it has a huge economic impact and it is an 
economic engine. It is a highway for commerce and business 
impact in the country.
    In fact, if I may touch a little bit on that business 
perspective that we talked about a little bit earlier by Mr. 
O'Brian, the key thing for us as an independent Federal agency 
that tries to do community and economic development in this 
part of the region, this is a real opportunity for us, as 
Federal Government and stakeholders at the local and State 
levels, to take some lessons learned from what we are seeing in 
Joplin and that coordination and that planning.
    In the midst of this terrible tragedy, we have a real 
opportunity to change the model. Our national framework for 
response is effective, and our counterparts are working hard 
every day to make sure these programs are in place and that we 
are utilizing the programs in a very efficient and effective 
manner.
    But this is a real opportunity to change the model, because 
the one thing, from what we see from our perspective, the one 
real gap is that focus on business and industry in a time of a 
natural disaster. This co-locating is an awesome idea. These 
business recovery teams that are on the ground, there are no 
mechanisms in place to really elevate that focus, to really put 
an attention on creating mechanisms and resources, not new 
money, but existing money to put an emphasis on how do we 
respond and how do we deal with it.
    One quick example. In small, little, southwest Arkansas, 
which is part of our region, the Southwest Arkansas Planning 
and Development District, is using current technologies, GIS, 
to map every business in a multi-county fashion so we have an 
inventory of every business in that part of the State, Senator 
Pryor, that we know in the course of a natural disaster we have 
that information.
    Can you imagine what it would have been like if Joplin had 
that inventory where we could coordinate both at the Federal, 
local, and State levels so we can make these kind of decisions 
to really put an emphasis on sharing this information?
    SBA does a good job and our system works well for 
individual and public assistance, but the one area that we need 
to think about ways, not necessarily new money, but with the 
existing structure, particularly with our Small Business 
Disaster Loans. Those are good, but what we are doing is that 
we are putting an emphasis and we are advocating for certain 
programs over another depending on what the situation is or 
disaster is.
    What the DRA is advocating or trying to get attention to, 
additional public awareness, is how do we take something like 
the Louisiana Business Emergency Operations Center and expand 
it in a way that FEMA can use that same type of structure, same 
information to coordinate and integrate with the Small Business 
Administration.
    Or when a disaster happens in the DRA region, they can come 
in and say, Hey, DRA, we know that you have 45 local 
development districts or COGs or PDDs or whatever they may be 
called, that has the ability to touch 3,000 elected officials, 
with a delivery system that has already been proven to make 
sure that we are utilizing all the local and State and Federal 
resources in a coordinated fashion as it relates to supporting, 
rebuilding, and making sure that our businesses and industries 
that are impacted.
    Individual assistance is effective. It is there. It works 
for the most part. So does the public assistance for our local 
counties and cities But the one thing that needs additional 
attention is the system in place to help address our small 
businesses. We have seen that in this disaster as it relates to 
the flooding.
    Senator Pryor. Let me ask a few questions, if I may. Let me 
say that Senator McCaskill is correct in that we did have a few 
mobile homes and trailers in Hope, Arkansas. We had about 
15,500, according to my staff. So it was not FEMA's finest hour 
when they did that.
    But nonetheless, I think that FEMA, under Administrator 
Fugate, has been doing a good job. What I have seen from my 
vantage point here is an agency that has been trying very, very 
hard to get it right. I am not saying FEMA gets it right 100 
percent of the time, but I think they get it right many more 
times than they get it wrong. We appreciate FEMA and the 
difficult jobs you have.
    Now let me ask a question of the rest of our panel about 
the disaster declaration process. I know we had an experience 
in Dumas, Arkansas 4 or 5 years ago. David, you would have to 
tell me. It had a really bad tornado and I do not think we ever 
got FEMA to grant a disaster declaration there. We tried and 
tried and tried.
    It was frustrating because we could never get a real handle 
on the criteria. Who was saying no, their reasons, and why it 
was difficult. So I am curious to hear the perspectives of the 
other four panelists on the disaster declaration process. Can 
we streamline it? Can we make it more transparent or more 
navigable in some way? Mr. Masingill, I do not know if you have 
a lot of first-hand experience with it. Why don't we start with 
you and go on down the line.
    Mr. Masingill. OK. Thank you, Senator Pryor. It is 
interesting that you actually mentioned the Dumas scenario. At 
the time, I was still working for Governor Beebe, but I sat on 
the board of the Delta Regional Authority on behalf of him with 
the other Governors in the region.
    One of the things that we recognized during that process is 
that although we never received the declaration for several 
reasons, and we tried to mitigate that as much as possible. 
David was leading the way doing it and still does that today, 
and a great job, I might add. Mr. Maxwell, thank you for your 
leadership on that.
    But one of the things that we were able to do, because the 
response framework that we have did not necessarily have 
structures in place or programs in place to be as responsive to 
business and industry, we had the one plant that makes pet food 
that served almost 200 or 300 employees that was going to 
relocate.
    But we were able to cobble State resources together and 
also DRA resources together to help them in that rebuild above 
and beyond what they already had the insurance for. But there 
was not a Federal mechanism in our response structure to say, 
Hey, look, this is an operation that employs almost 300 people 
that we have already made investments in when they were an 
economic development project, trying to be recruited many, many 
years ago.
    So we already have an investment in it. But the system in 
place did not allow for it to fit into the current structure. 
So you took a round--a square peg in this case, trying to fit 
it into a round hole in terms of our current system that is in 
place to deal with business and industry.
    So from our perspective, luckily we had DRA resources and 
we were able to use some State resources with Governor Beebe's 
leadership, and we invested back into that industry to keep 
that up. And the process currently does not allow for that kind 
of flexibility.
    Senator Pryor. Mr. Maxwell.
    Mr. Maxwell. Yes, sir, thank you. I wish Senator Paul was 
here for this discussion, because I think we are going to talk 
a little bit about the number of disasters and some of the 
implications there. Arkansas really does not ask for disaster 
declarations from the President unless we think we have them. 
Arkansas has our own individual assistance programs, our own 
public assistance programs for those that we feel are under the 
threshold or the criteria for Presidential disaster 
declarations.
    We want to take care of our own people as much as possible. 
I was surprised this year when we received the denial on the 
one request, and I, frankly, will take some of the blame for 
that. I think in our zeal to get the assistance out to the 
people quickly, we may have gotten out too quickly to do the 
preliminary damage assessment and did not show all of the 
damage, did not see all the damage.
    There was some communication problem. I should have known 
that they did not see all the damage or we would not have asked 
at that time. But anyway, we eventually got it and we are very 
appreciative of the efforts that you, Senator Boozman, and the 
entire Arkansas delegation put in on that.
    It is the President's prerogative and I really do not want 
to meddle in his business, but any--and we have had, actually, 
when Administrator Fugate was State Director, he worked on a 
task force from NEMA's standpoint with FEMA looking at 
individual assistance criteria, and we thought we had an 
agreement just about ready and it fell apart.
    But I think that is one of the things. If we had some idea, 
especially if we have an idea on public assistance, we had that 
same sort of idea on individual assistance, we could manage the 
expectations of the citizens a little better.
    Senator Pryor. Mr. Womack.
    Mr. Womack. As Mr. Maxwell stated, under public assistance, 
there is a specific set of numeric indicators. We do not use 
the term thresholds because they are not hard and fast. But 
generally speaking, if you do not meet the State numeric 
indicators, or a local government does not meet those dollar 
amounts, then it is very difficult to get a public assistance 
declaration.
    By the same token, if you just meet those thresholds and 
there was not an overall heavy impact to the State, you may 
still not get the declaration. But the fact that there is a 
monetary amount that is tied to each county and tied to the 
State, it gives us a better method of determining whether or 
not we have a reasonable chance of getting a declaration.
    Under individual assistance, Dave and I have been involved 
in this for 5 years or more talking about, Do we want standards 
based on the community's population, based on the community's 
income? Do we want a specific standard that says, If you have 
this level of damage in a county and if a State has this level 
of damage, then you should reasonably expect to receive a 
declaration.
    Or do we really want it where the President has the 
flexibility to make the decision based on a number of factors? 
And that is currently what the Stafford Act says. It talks in 
terms of number of homes destroyed or major damage, but it also 
talks about all these other factors.
    I would tell you that I would like to see more structure to 
it, but I would not like to see the structure be quite as 
defined as public assistance, and I hope that helps.
    Senator Pryor. Mr. O'Brian, do you want to comment on that?
    Mr. O'Brian. I think our only comment would be that we 
obviously had a disaster of great magnitude and there was 
already an existing disaster declaration in the State of 
Missouri for the flooding. So it was the decision to tag us on 
to that so assistance could begin immediately, which we greatly 
appreciated.
    That put us about 2 weeks short of the typical window and 
it did take a little time to put those other 2 weeks on there, 
but we did receive immediate aid because of that ability to 
link us into the existing declaration.
    Mr. Maxwell. Senator, could I add to that? In our first 
disaster this year, we have ended up with over 10,000 
applicants for individual assistance. That process went--on 
larger disasters, the process goes very smoothly, very quickly. 
FEMA is working outside the box with us a lot on flying over 
flooded areas to get estimates of the damage, those kind of 
things.
    We had people going out in boats to do damage assessments. 
We tried a lot of alternatives there and it worked well. But 
when we get to the smaller disasters, those that we feel are 
above, especially after experiencing a really large disaster, I 
think the thresholds or the indicators have to go down some 
because the State and local governments have lost a lot of 
capability after fighting a really large disaster.
    Mr. Womack. And you could literally have one small 
community, Smithville is the town that got hit the hardest in 
Mississippi. Eight hundred citizens lived in Smithville. 
Probably two-thirds, three-fourths of the homes were totally 
wiped off their slabs. It would be difficult to tell that one 
community, you do not qualify for Federal disaster assistance 
because the rest of the State was not hit very hard.
    So this is probably the most difficult thing, is what 
should be the criteria for individual assistance declarations.
    Senator Pryor. That is very helpful. Let me ask one last 
question then. If my colleagues have any other questions, we 
will take those. I want to talk about the Emergency Management 
Assistance Compact (EMAC). I would like to hear from Mr. Womack 
and Mr. Maxwell about how that has been working. I am actually 
getting ready to introduce the legislation to re-authorize the 
program. I am interested in your experiences with it and how 
that works. So, Mr. Womack, do you want to go first?
    Mr. Womack. Well, as I tried to state in my testimony, 
because of a great system of mutual aid, both in the State of 
Mississippi and with other States under EMAC, we do not have to 
rely on Federal resources. In fact, I had a conversation with 
Craig Fugate and he said that if they had to deploy Federal 
urban search and rescue teams to maybe Tuscaloosa or to Joplin, 
they may not have been available for other types of incidences.
    And so, I think it works tremendously effectively. In 
Mississippi, our reimbursement to other States for Hurricane 
Katrina for EMAC-related costs--police, fire, emergency 
medical, commodities, equipment costs--was $80 million, $80 
million for EMAC services. And it was tremendously, 
tremendously effective.
    That is another great success story over the last 10 years 
since September 11, 2001, is the fact that we have built great 
capability at the State and local level and we can deploy that 
throughout the Nation. So it is a tremendous system; it needs 
to be continued.
    Senator Pryor. Good. Mr. Maxwell.
    Mr. Maxwell. We have been more of a supplier of assistance 
than a requestor of assistance. We have, I think, back in the 
ice storm of 2000, we got some generators from Missouri and 
Louisiana. In the ice storm of 2004, I believe, or whenever the 
last ice storm was, I have lost track, we got some water 
tankers from Louisiana.
    But we have sent National Guard soldiers to Mississippi and 
Louisiana in Hurricane Katrina. This year we sent a search and 
rescue team from northwest Arkansas to Joplin almost 
immediately, followed up with the paperwork. So it does get 
those needed equipment, needed people out there quickly.
    And the important thing with your bill and the steady 
stream of funding is that we keep improving it. It gets better 
every year.
    The current Chair of the NEMA EMAC Subcommittee is from 
Kentucky, and is a techno whiz, and he is looking at ways to--
our counterpart in Kentucky--is really looking at ways to 
improve how we identify where resources are so if there is a 
disaster, you can draw a ring and immediately know what kind of 
resources that you need are within that ring so you can get 
them closest, quickest, fastest.
    Senator Pryor. Great. Now, Senator Blunt, did you have 
other questions?
    Senator Blunt. I just had two more questions, if you do not 
mind.
    Senator Pryor. Go ahead.
    Senator Blunt. Chairman, thanks again for putting this 
hearing together and thanks to the panel for sticking with us 
for all the time we had scheduled, and that does not happen 
sometimes.
    But, Mr. Masingill, I am going to ask you about crop 
insurance and other things that relate to how the Agriculture 
Committee responds to these disasters. And while you are 
thinking about that, Mr. Serino, what about the funding for the 
safe rooms? And is that available to public facilities 
principally?
    Mr. Serino. Yes. It is available to public facilities. 
There are actually some good stories. We were funded for--in 
Oklahoma we funded safe rooms in a school that cost $144,000. 
The Federal share was about $110,000 of that. And with that, 
when the tornados came through earlier this spring, that not 
only did the school department folks went in there, but 
firefighters went in there, public safety. Citizens were able 
to go in there. Two hundred people were able to go into that 
safe room that directly saved their lives for a cost of about 
$144,000. Of the Federal share, we picked up about $110,000 of 
that.
    Senator Blunt. We are rebuilding lots of public facilities 
in Joplin, Missouri, and obviously had people that had nowhere 
to go and lots of stories about thinking they were going to a 
safe place that turned out not to be a safe place. And how 
about the funding for that?
    Mr. Serino. Specifically in Joplin, for example, we are 
actually working with them through that. There will be safe 
rooms, for example, in the schools that meet code, and that is 
one thing that is important, that these are going to meet the 
code, the regulations that are set forth to make sure that they 
are, in fact, safe rooms.
    And not only are we going to be doing that in the buildings 
permanently, but for the temporaries. Some of the schools were 
lost in Joplin and with some of the temporary schools that we 
are putting up, we are going to make sure that there are safe 
rooms in the temporary schools----
    Senator Blunt. Really?
    Mr. Serino [continuing]. Even for the short term to make 
sure that people will have somewhere to go that is safe in the 
short term that they will be safe, but also, I think, it is 
going to be important for the community to know that there will 
be somewhere safe for the children while they are in schools, 
psychologically as well.
    Senator Blunt. Mr. Maxwell.
    Mr. Maxwell. More than that, more than just that the kids 
are safe, those school safe rooms can be equipped with either 
an electronic keypad or a keybox that the law enforcement or 
fire have access to. They can open it up in the evening times 
for the community to then go to.
    Senator Blunt. Right. Good point. Mr. Masingill, talk to me 
a little bit about the government agriculture programs and how 
they have worked during crop loss and other ag disasters that 
you have seen this year.
    Mr. Masingill. It seems from our perspective, or at least 
the information that we get back, is that the key point. More 
information the better. I think there was an initial point 
where if USDA was going to, in this particular case, the 
farmers that were going to be impacted, because the government 
decided to make the decision to blow the levee, and I know 
there was a great deal of conversations and contention with 
that.
    I think that the final verdict, which we need to get 
confirmation on, is that they are going to be included.
    Senator Blunt. It was. The Birds Point verdict, for 
instance, since that was technically man-made----
    Mr. Masingill. Right.
    Senator Blunt [continuing]. And Senator McCaskill and I 
both worked with the Secretary and he made that determination, 
actually at Birds Point, before they blew the levee, that even 
when they blew the levee, that the crop--but what if you did 
not? Did enough people have it? I mean, in the Delta, you have 
such a low water table that some of the upper plains, for 
instance, and other places in our State where you would 
normally get crop insurance, you may not have it in the Delta. 
Is it too late? What did you see happen there?
    Mr. Masingill. Well, you are right on point. In fact, some 
of the information that has been given to us is that it is 
projected that the crop loss in Missouri alone will be over 
$42.6 million. That is after insurance payments from this one 
piece of information. The domino effect that it is having, the 
Secretary might have made that decision, but from the 
information that we got back, it was not until a good 
separation of time before people at the local level knew that 
was the case. The rumor mill was an issue for us, that we kept 
on trying to get information, what was the right information, 
how do we disseminate that? And then at this point, too, how do 
we repair those crop lands? Because now we are seeing from the 
river water the damage that we will have on the crop lands for 
a long time. What mechanisms can we put in place to help do 
that? So that coordination of information was key, and I think 
there are still questions about that information now.
    Senator Blunt. Well, there is a lot of discussion right now 
about all these ag programs. Do you want to say anything about 
direct payments or crop insurance, either one, while you are 
talking about it?
    Mr. Masingill. I am not sure I am qualified to address 
that, Senator, but other than obviously agricultural economy in 
the Mississippi Delta Region is important. It is still a major 
economic driver for our region. The other thing that we have 
not mentioned and that is the impact, again, to our inland 
waterway ports.
    The Seymour Port and others had significant damage to the 
dolphins. Those are investments that we have even made in 
previous cycles before. So now we have to take a look, it is 
like, Well, what do we do now? That waterway channel is a major 
economic driver and that infrastructure investment and 
protection of that is just as important.
    Senator Pryor. Senator McCaskill.
    Senator McCaskill. I just want to thank everyone for being 
here and thank you for all your hard work. They always say, 
there is a little tiny silver lining in every cloud, and if you 
were on the ground in Joplin in the days and weeks following 
that disaster, you saw the silver lining. It was glowing and 
that was the sense of community and the way everyone was 
working together, including the Federal agencies and all the 
municipalities that showed up.
    So thank you all for being here and thanks for all of your 
work. And thank you, Mr. Chairman, for holding the Subcommittee 
hearing.
    Senator Pryor. Thank you. I want to thank both of our 
Senators from Missouri for being here, and all of our Senators 
who participated today. I especially want to thank the panel. 
We are going to leave the record open for 15 days, until August 
3, it is likely that some Senators will submit either followup 
questions. I know Senator Landrieu was trying to come, but she 
had a couple conflicts she could not get out of she may have 
questions for the panel.
    We will leave the record open and all of you will probably 
get some additional questions. Thank you all for being here. 
This has really been an informative and helpful hearing. With 
that, we will adjourn it. Thank you very much.
    [Whereupon, at 4:09 p.m., the hearing was adjourned.]

                            A P P E N D I X

                              ----------                              




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
